"."'7AL

Oi

Supreme Court U.S.
FILED

APR 0 6 2020

WAIVER

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Jocelyn A. Johnson.

19-1164
v.

Workers' Compensation Appeals Board et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents. •
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

California Workers' Compensation Appeals Board

0 I am a member of the Bar of. the Supreme Court of the United States.
0 I am not presently a member of t.b Bar f this Court Should a response be requested, the response
will be filed by Bar member.
Signature
Date.

April 6, 2020

✓

Anne Schmitz
Ej Mr. [1] Ms. El Mrs. ❑ Miss
California Workers' Compensation Appeals Board

(Type or print) Name
Firm

Address

455 Golden Gate Avenue, 9th Floor

City & State
Phone

San Francisco, CA

415-703-4545

Zip
Email

94102

ASchmitz@dir.ca.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: see attached Proof of Service

RECEIVED
APR 15 2020
OFFICE O
SUPREMECOURTLERK
U.S.

PROOF OF SERVICE BY MAIL
(Code Civ. Proc., §1010.6; Lab. Code, §5954;
Cal. Rules of Court, Rules 8.70 - 8.79)
STATE OF CALIFORNIA
)Ss.
CITY AND COUNTY OF SAN FRANCISCO)
I am over 18 years of age and not a party to this action. I am employed in
the county where the mailing took place. My business address is 455 Golden Gate
Avenue, Suite 9328, San Francisco, CA 94102.
On April 6, 2020, I served the within Waiver to the court clerk in the matter of
Case No. 19-1164, Jocelyn A. Johnson v. Workers' Compensation Appeals Board
et al. on the Supreme Court of the United States and on the parties by U.S. mail. I
am readily familiar with this business's practice for collecting and processing
correspondence for mailing. On the same day that correspondence is placed for
collection and mailing, it is deposited in the ordinary course of business with the
United States Postal Service in sealed envelopes with postage fully prepaid. The
envelopes were addressed and mailed as follows:
Supreme Court of the United States
One First Street, NE
Washington, DC 20543

Jocelyn A. Johnson
5329 Clark Street
Lynwood, CA 90262

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
California Supreme Court
350 McAllister Street
San Francisco, CA 94102

Court of Appeal 2nd District
Ronald Reagan State Building
300 S. Spring Street, 8228
Los Angeles, CA 90013
Noel Francisco
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

I declare under penalty of perjury under the laws of the State of California
that the foregoing is true and correct, and that this declaration was executed at
San Francisco, California on April 6, 2020.

Annie Riza ficial

